TITLE XI LOAN GUARANTEE
         PROGRAM
     Maritime Administration

   Report Number: CR-2003-031
   Date Issued: March 27, 2003
           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on the Audit of the                         Date:    March 27, 2003
           Title XI Loan Guarantee Program
           Maritime Administration
           Report No. CR-2003-031
  From:    Kenneth M. Mead                                         Reply to
                                                                   Attn. of:   JA-50
           Inspector General
    To:    Maritime Administrator

           This final report presents the results of our audit of the Maritime Administration’s
           (MARAD) Title XI Loan Guarantee Program (Title XI). We initiated this audit in
           response to requests from the Ranking Member, Senate Committee on Commerce,
           Science and Transportation, and from the Chairman, Subcommittee on Commerce,
           Justice, State and Judiciary of the House Committee on Appropriations.

           Our objectives were to: (1) perform a comprehensive review of the Title XI
           Program to determine whether procedures for submission, review, approval, and
           monitoring of selected Title XI loan guarantees comply with applicable laws and
           regulations and whether the procedures are adequate and effectively applied to
           protect the interests of the United States; and (2) assess the impact of the
           American Classic Voyages Co. (AMCV) bankruptcy filing on its Title XI loan
           guarantees. Our scope, methodology, and prior audit coverage are described in
           Exhibit A. Exhibit B lists the activities we visited or contacted during the audit.

           We discussed this report with MARAD officials, and their comments have been
           incorporated, as appropriate. In preparing this report, we also considered
           MARAD’s February 25, 2003 response (see Appendix) to our draft report.
           MARAD is cognizant of the need for improved oversight of the Title XI Program
           and was in agreement with our five recommendations for improving oversight.
           We note your commitment to tightening the controls over the approval of loan
           guarantees and taking more timely action to recover the maximum amount
           possible from foreclosed assets in the event of loan defaults. These actions, when
                                                                                                                  2
implemented, will go a long way toward improving the operation and efficiency
of the Title XI Program.

BACKGROUND
Title XI of the Merchant Marine Act of 1936, as amended, established the Federal
Ship Financing Guarantee Program (Program) to assist private companies in
obtaining financing for the construction of ships or the modernization of
U.S. shipyards. This Program authorizes the Federal Government to guarantee full
payment to the lender of the unpaid principal and interest of a mortgage obligation
in the event of default by a vessel or shipyard owner. Title XI was amended in
1972 to provide Government guarantees to commercial debt obligations, with the
Government holding a mortgage on the equipment financed.

Regulations implementing the Merchant Marine Act of 1936 [Title 46 Code of
Federal Regulations (CFR), Section 298] outline the application process for
Title XI loan guarantees and require MARAD to assess the economic feasibility
and the financial viability of an applicant’s project. Upon approval of an
application, MARAD agrees to guarantee these obligations with the full faith and
credit of the U.S. Government through a commitment letter to the applicant. The
applicant must provide at least 12.5 percent to 25 percent (depending on project
use) of the project’s projected cost as equity, and a commercial financial
institution issues obligations for the remainder.1 Loans guaranteed by the Program
carry an inherently higher risk of default than commercial business loans. As a
result, applicants generally receive more favorable loan terms than are available in
the commercial market without a guarantee.

The Program has contributed to preserving a U.S. commercial fleet and
modernizing U.S. shipyards. Vessels financed using loan guarantees include
double-hull oil tankers, passenger ferries, cruise ships, and offshore drilling rigs.
Shipyard modernizations have included capital improvement projects at shipyards
located on the east, gulf, and west coasts.

As of December 31, 2002, MARAD’s Title XI portfolio totaled approximately
$4.3 billion, consisting of $3.4 billion in executed loan guarantees2 (formal
agreements to issue obligations) and $849 million of loan guarantee commitments3
(formal offers for guarantees). The $3.4 billion in executed loan guarantees
represents 103 projects for 818 vessels and 4 shipyard modernizations. Included
in the Title XI portfolio are eight projects totaling about $226 million in
commitments that MARAD approved in fiscal year (FY) 2002.                 As of
December 31, 2002, MARAD had 26 applications pending, requesting about
$5.7 billion of Title XI financing.
1
    These are bonds, notes, debentures or other evidence of indebtedness.
2
    Loan guarantees are legal obligations (by MARAD) to pay off the debt if an applicant defaults on a loan.
3
    Loan guarantee commitments are legal agreements, stated in a commitment letter stipulating that MARAD will issue
    a loan guarantee for the project if the applicant fulfills agreed-upon terms.
                                                                                                                      3

      RESULTS
      Between FYs 1985 and 1987, 129 defaults occurred in the Title XI Program, and
      MARAD paid out approximately $2 billion in guarantees. These defaults were
      attributed to a downturn in the economic conditions in two key industries—oil and
      agricultural products. The Federal Credit Reform Act of 19904 was established, in
      part, to measure more accurately the costs of Federal credit programs. In the
      5 years following implementation of this Act (FYs 1993 through 1997), only
      three loans defaulted, totaling approximately $12 million.

      In recent years, however, the Program has experienced an increase in loan defaults
      and in the number of firms with loan guarantees filing for bankruptcy protection.
      In the last 5 years, nine loans have defaulted, totaling approximately $490 million,
      six of which have occurred since December 2001 (as shown in Table 1). The
      bankruptcy of AMCV significantly affected the Program, although it does not
      threaten the Program’s immediate solvency. AMCV’s bankruptcy affected over
      one quarter ($1.3 billion out of $4.9 billion at the time of default) of the value of
      MARAD’s Title XI loan guarantee portfolio.

                Table 1 – Recent Payouts and Recoveries on Defaulted Loans
Date of     Year of                               Project/Vessel          Guaranteed              Paid-Out      Recovered
                             Company                                                                            Amount6
Default     Origin                                    Name                 Amount                 Amount5
2/1998          1996   Surf Express, Inc.     FastCat Catamaran               $1,701,000           $1,788,854     $100,000
                                              Shipyard
2/2000          1997   MHI, Inc.                                              55,000,000           59,071,658    24,108,619
                                              Modernization
                                              4 Moses-Class
3/2001          1995   SEAREX, Inc.                                           77,269,000           78,099,782    25,405,708
                                              Vessels
                                              Project America 1
12/2001         1999   AMCV                                                  185,000,000          187,317,445     7,425,416
                                              Cruise Ship
12/2001         2000   AMCV                   Cape Cod Light                  38,500,000           40,376,340     8,264,783
12/2001         2000   AMCV                   Cape May Light                  37,900,000           39,769,997       703,947
1/2002          1995   AMCV                   SS Independence                 33,334,000           25,185,531             0
1/2002          2001   AMCV                   Columbia Queen                  35,471,000           37,007,570             0
                       Friede Goldman         Shipyard
3/2002          1997                                                          24,817,000           20,884,647    21,300,000
                       Offshore               Modernization
Source: MARAD
                                   Totals through January 2003             $488,992,000          $489,501,824   $87,308,473




      4
          Public Law 101-508
      5
          These amounts include accrued, unpaid interest as well as the outstanding principal.
      6
          These amounts include recoveries from escrowed funds (as of January 2003).
                                                                                  4

These losses have generated both public and congressional concerns regarding
adequate protection of the Government’s financial interests in ships and other
assets constructed through the Program. Concerns also exist regarding the
potential for additional future defaults and losses to the Government, given the
uncertain financial status of some of the companies with guaranteed loans.
Three companies, with initial loan guarantees totaling $173 million, are continuing
to operate while their parent company, the Enron Corporation, is in bankruptcy. If
these loans default, MARAD would be obligated to pay out over $122 million,
excluding interest (see Table 2).


           Table 2 – Enron Companies with Title XI Guarantees
                                                                    Outstanding
                 Company                     Vessel Type
                                                                     Balance
 Puerto Quetzal Power, LLC              Power barge                $60,304,000
                                       Barge-mounted
 Empresa Energetica Corinto, LTD                                    39,442,000
                                         power plant
                                      2 Barge-mounted
 Smith/Enron Cogeneration, LTD                                      22,376,000
                                        power plants
    Total Outstanding Balance as of January 2003                 $122,122,000
 Source: MARAD




MARAD needs to improve administration and oversight in all phases of the
Title XI loan process and is working to do so. During this audit, we identified a
number of areas where MARAD could improve its Program practices, limit the
risk of default, and reduce losses to the Government. The financial interests of the
United States would be better protected through use of compensatory loan
provisions to reduce risk, improved loan application review procedures, more
rigorous financial oversight of borrowers during the term of loan guarantees, better
monitoring and protection of vessels and shipyards while under a guarantee, and
more effective stewardship of assets acquired through foreclosures.


MARAD Could Reduce the Risk of Losses Through Compensatory
Loan Provisions Such as More Collateral and Higher Equity
Contributions
MARAD routinely modifies financial requirements in order to qualify applicants
for loan guarantees. These financial requirements, established by regulation, are
designed to reduce the risks of default and losses from loan guarantees. Such
modifications increase the risk of the loan guarantee to the Government, and
MARAD should impose stricter compensating requirements on borrowers to offset
this increased risk. All nine of the loans that have gone into default since 1998,
                                                                                     5

totaling about $490 million in MARAD payouts, were approved with
modifications to some of the financial criteria. Some examples include:
• The applicant’s working capital was negative, contrary to requirements;
• Applicant’s debt-to-equity ratio was more than 4 to 1, twice the criteria; and
• Parent company guarantees were not backed by any unencumbered assets.

Compensating requirements are routinely applied by financial institutions in
constructing loan packages that match the lender’s risk to the return it receives
from the borrower. In the Title XI Program, compensatory provisions could
include securing additional collateral (such as liens on other assets), requiring
greater amounts of project equity from the applicant, and having a portion of the
risk assumed by the applicant’s lender. MARAD’s use of compensatory
provisions should be feasible because many Title XI applicants are subsidiaries of
parent companies with other assets and financial resources.

MARAD Would Benefit From External Review of Applications
MARAD currently assesses loan guarantee applications primarily with its own
staff using criteria adopted in regulations. Although MARAD has staff to do such
assessments in house, the loan review process would benefit from the use of an
additional external review using contract resources, especially for applications
involving large loan amounts, requiring modifications to the approval criteria, or
involving complex, novel, or new technologies. These external reviews would
serve to verify MARAD’s internal analysis and assist it in devising loan packages
that reduce the default and loss risk to the Government. External reviews should
include at least four elements: an assessment of the borrower’s business plan; an
evaluation of the borrower’s credit risk; an independent assessor’s analysis of the
current market value of collateral and any encumbrances; and an independent
summary analysis of the loan guarantee application that includes a
recommendation on whether to approve the loan and on what terms.


MARAD Could Better Protect Its Interests Through Improved
Oversight of Borrowers Over the Duration of Their Loans
MARAD does not closely monitor the financial health of its borrowers over the
term of their loans; rather, it tends to be reactive to loan problems after they occur.
MARAD should place covenants in its loan guarantees concerning the required
financial performance and condition of its borrowers, as well as self-help measures
to which MARAD is entitled should those provisions be violated. Financial
performance criteria might include such conditions as minimum working capital
levels, cash flow requirements, minimum financial ratios, future capital spending
constraints, and timely financial reporting. Self-help measures might include the
ability to require additional reserves or collateral, declare defaults, take possession
of existing collateral, and repossess the guaranteed asset.
                                                                                6

After establishing such conditions, MARAD needs to maintain close financial
scrutiny of its borrowers to ensure the conditions are being met. The current
minimal monitoring approach would not provide such information in a timely or
sufficient manner. With sufficient forewarning and self-help measures in place,
MARAD would be better able to protect its financial interests well before default
and foreclosure.


MARAD Could Improve Its Return on Foreclosed Assets Through
Better Tracking of the Vessels and Property Constructed With Loan
Guarantees
MARAD does not closely monitor the physical condition of the vessels and
property financed with guaranteed loans either during the loan period or after
foreclosures. If borrowers experience financial difficulties, they may be inclined
to under-maintain the assets constructed with loan guarantees. Therefore, to
protect the Government’s interest in such assets, MARAD should periodically
inspect them, particularly those operated by firms experiencing financial
difficulties identified by MARAD’s financial monitoring. Likewise, when
MARAD forecloses on assets after loan default, it could increase the return to the
Government on those assets by closely monitoring their maintenance and
protection.


AMCV’s Bankruptcy Significantly Affected the Title XI Program but
Does Not Threaten Its Solvency
AMCV’s bankruptcy in 2001 threatened over one quarter of the value of
MARAD’s Title XI portfolio at that time ($1.3 billion out of $4.9 billion in
MARAD’s loan guarantee portfolio). However, not all of these funds had been
disbursed, and the impact on MARAD’s resources was limited to about
$330 million. Nevertheless, MARAD was forced to borrow $136 million from the
Treasury to meet its loan guarantees. To date, MARAD has repaid $124 million to
the Treasury. The balance of $12 million is due by FY 2005. The circumstances
surrounding AMCV’s loan approvals and defaults illustrate the problems
identified above. Had these program revisions and protections been in place at the
time of AMCV’s loan application, the losses to the Government would likely have
been much less.
                                                                                                                7


FINDINGS AND RECOMMENDATIONS

MARAD Could Reduce the Risk of Losses Through
Compensatory Loan Provisions Such as More Collateral and
Higher Equity Contributions
MARAD currently assesses loan guarantee applications primarily with its own
staff using financial criteria in regulations adopted from the Merchant Marine Act
of 1936, as amended.7 Routinely, however, MARAD modifies these financial
requirements to allow applicants to qualify for loan guarantees, and these
modifications lead to increased risk of loss. All nine of the loans that have gone
into default since 1998 were approved with modifications to some of the financial
criteria.

We found examples of approved loan applications where the applicant’s working
capital was negative, contrary to the requirements. Specifically, SEAREX, Inc.,
did not meet the positive working capital requirement in 1994 when it requested a
loan guarantee; it defaulted in 2001. We also found examples in which applicants
had long-term debt-to-net-worth ratios of more than the 2 to 1 permitted in the
regulations.8 In fact, one active project, approved for a loan guarantee of over
$15 million, had a long-term debt-to-net-worth ratio of more than 4 to 1.

Although MARAD’s regulations permit it to modify financial requirements for
loan guarantees, and modifications may be appropriate in some cases, MARAD
must have a process in place so that when modifications are made, compensating
conditions are imposed on the borrower to offset the increased risk to the
Government. This is particularly true because MARAD’s primary collateral for
loan guarantees, liens against the assets funded by the loans, often provide little
security. Specifically, such collateral may be of little or no value if the vessel is
incomplete at the time of default or the projected market for the vessel does not
materialize.

For example, the hull and materials for a vessel being built for Project America,
Inc., a subsidiary of AMCV, and guaranteed by MARAD for $185 million, were
recently sold by the shipyard, with MARAD recovering $2 million. This
subsidiary had no tangible assets beyond the guaranteed vessel, as in all six of the
guaranteed loans to AMCV. In the case of SEAREX, resulting in a liability to
MARAD of about $62 million after default, MARAD recovered only $8.7 million
for the nearly completed Trident Crusader and about $1 million for the hulls,
materials, and equipment for three partially completed vessels.

MARAD often accepts parent company guarantees of loan repayment for a
subsidiary that either cannot qualify for a loan guarantee on its own or cannot
7
    46 CFR 298.13
8
    The long-term debt-to-net-worth ratio measures the capital contributed by creditors and capital contributed by
    owners.
                                                                                                                     8

qualify without modifications to the loan criteria. In fact, 50 percent of the
projects we examined (21 of 42) relied on parent company guarantees.9 In these
cases, the applicants could not independently qualify for a loan guarantee, had few
or no assets to offer as collateral, and provided the parent company guarantee as
the sole form of security. Of these 21 projects, 14 could not qualify without
modification of some loan approval criteria.

If these parent company guarantees were backed by liens on specific assets, the
Government’s loan guarantee would be relatively secure. However, these parent
company guarantees were general pledges by the company to honor the loan
commitment that did not specifically pledge unencumbered assets as collateral.
Therefore, these parent company guarantees provide no real security if the parent
company itself were not creditworthy or had few unencumbered assets, as was the
case in six of nine recent defaults.

There appears to be a problem of insulating a parent company from liability for
Title XI loans. A parent company seeking a loan guarantee establishes a
subsidiary for the sole purpose of acquiring and operating the guaranteed asset.
Because such subsidiaries have neither collateral nor a financial operating history,
they require a parent company guarantee. By only offering a general guarantee,
the parent company insulates its other assets should the subsidiary default.

MARAD can prevent this problem by requiring parent company pledges to be
backed by liens on other unencumbered assets. This approach should be feasible
because many Title XI applicants are subsidiaries of parent companies that have
other assets and financial resources. For example, MARAD approved a loan
guarantee for over $150 million to a company for an oil-drilling unit without
requiring a lien on other assets, yet the company had a number of other
unencumbered assets it could have used to secure the guarantee.

MARAD also needs to ensure that any modifications to the application
requirements on behalf of the applicant or the parent company are offset by
compensating measures in the guarantee agreements that protect the interests of
the U.S. Government. These compensating measures could include securing liens
on additional collateral, requiring greater amounts of project equity from the
applicants, or having a greater portion of the risk assumed by the applicant’s
lender. General pledges from parent companies do not meet this test of protecting
the Government’s interests.


MARAD Would Benefit From External Review of Applications
MARAD primarily conducts in-house reviews of applications and does not
routinely obtain independent assessments of proposed projects to determine if they

9
    We examined all 9 of the recently defaulted projects and a stratified random sample of 33 of the remaining projects
    in MARAD’s loan portfolio at the time of our audit. Therefore, we analyzed 42 percent of the projects
    (42 out of 100).
                                                                                  9

are economically and financially sound. MARAD officials have acknowledged a
lack of in-house expertise to review projects that employ new technologies, are
financially complex, or are high-cost. Independent assessments of such projects
would assist MARAD in its internal analysis and reduce the risk of default and
loss to the Government.

For example, the Export-Import Bank of the United States (Bank), which operates
a loan guarantee program, hires outside independent financial, legal, and technical
advisors for projects with financial transactions that exceed $30 million. After the
Bank selects the advisor, the applicant is required to pay an evaluation fee and
execute a contract with the advisor. The Bank uses the advisor’s report as part of
the evaluation package to determine if a loan guarantee will be made. The use of
advisors has significantly reduced the Government’s risk and better protected the
taxpayers’ investment.

MARAD officials stated that a loan guarantee application, pending since 1999 for
a 6,200-passenger cruise ship costing over $1.3 billion, would benefit from an
outside review due to the ship’s size and cost, and entrance into a new market.
MARAD officials have also noted that a current application for two high-speed
container vessels for about $750 million in loan guarantees is being reviewed by
an outside firm due to the ships’ cost, the use of new technology, and the start-up
nature of the company. A similar external review may have highlighted the
potential for cost growth in the SEAREX application for the construction of
four vessels—a project that had a 71 percent cost increase prior to its default.

MARAD’s Title XI Program would benefit from the adoption of a system similar
to that used by the Bank of contracted external reviews of loan applications.
These independent external reviews should encompass four elements: an
assessment of the borrower’s business plan; an evaluation of the borrower’s credit
risk; an independent assessor’s analysis of the current market value of collateral
and any encumbrances; and an independent summary analysis of the loan
guarantee application that includes a recommendation on whether to approve the
loan and on what terms.


MARAD Could Better Protect Its Interests Through Improved
Oversight of Borrowers Over the Duration of Their Loans
MARAD does not closely monitor the financial health of its borrowers over the
term of its loan guarantees. Borrowers submit annual financial statements to
MARAD. Although MARAD has the authority to require additional financial
statements, examine and audit the books and records pertaining to the project, and
assess the vessels, MARAD typically does not take these additional steps to
oversee the financial condition of its borrowers.

Currently, MARAD records loan payments, obtains documentation of insurance
coverage of the guaranteed assets, and monitors the portfolio for delinquent
                                                                                                                                           10

    accounts. Although MARAD maintains communications with lenders, insurance
    companies, and loan guarantee recipients, MARAD has no established procedures
    or policies incorporating periodic reviews of a company’s financial well-being
    once a loan guarantee is approved.

    Firms rarely enter into bankruptcy or find themselves forced to default on
    guaranteed loans without many preceding quarters or years of financial results that
    indicate developing financial distress. For example, AMCV’s stock price fell
    from $35.00 a share in December 1999 to less than $0.50 before its bankruptcy
    filing in October 2001, as shown in Figure 1.




                                Figure 1 - AMCV Financial Events
            $40                      Project America             2 Cape Light V essels,                Columbia Queen,
                                     I & II, Cost : $1.2 Billion Cost : $8 9 .5 M illion               Cost : $4 2 .1 M illion
            $35                                                                     M S Pat riot ,                     At t acks of
                                                                                    Cost : $114 .5 M illion            Sept 11
            $30
                                                                                                                        Files
                                                                                                                        Chapt er 11
            $25
 Stock
Closing     $20                                                                                                         Project
 Price
                                                                                                                        America Sold
            $15                                                                                                         f or $2 M illion

            $10
             $5             Net Income:            Net Income:           Net Income:              Net Income:
                            $2.43 million          $157,000              - $1.75 million          - $10.1 million
             $0
           Ju 8




           Ju 9




           Ju 0




           Ju 1




           Ju 2
           M 7



           Se 8


           M 8



           Se 9


           M 9



           Se 0


           M 0



           Se 1


           M 1


                02
           De 7




           De 8




           De 9




           De 0




           De 1
                -9




                -9




                -0




                -0




               -0
                 9
              c-9



                 9

                 9
              c-9



                 9

                 9
              c-9



                0

                 0
              c-0



                0

                0
              c-0
              n-




              n-




              n-




              n-




              n-
             p-




             p-




             p-




             p-




             p-
            ar




            ar




            ar




            ar




            ar
           Se




Source: MARAD & U.S. Securities and Exchange Commission Filings
                                                                                    11


Furthermore, AMCV’s filings with the Securities and Exchange Commission
show a marked decrease in net income from December 1997 to December 2000.
In spite of AMCV’s declining net income and stock valuation, MARAD continued
to approve loan guarantees to AMCV for $76 million for the two Cape Light
ships, and over $35 million for the Columbia Queen. Just prior to AMCV’s
bankruptcy filing, MARAD was considering a disbursement from AMCV’s
Project America I escrow account to fund further construction of this vessel.

Increased financial monitoring is only useful if MARAD also includes financial
covenants in its loan guarantee commitments. These covenants should prescribe
the required financial performance and condition of its borrowers as well as
self-help measures to which MARAD is entitled should those provisions be
violated. These performance targets might include minimum working capital
levels, cash flow requirements, minimum financial ratios, future capital spending
constraints, and timely financial reporting. Self-help measures might include the
ability to require additional reserves or collateral, declare defaults, take possession
of existing collateral, and repossess the guaranteed asset. By having the right to
invoke these measures earlier, when firms begin to experience financial distress,
MARAD may be able to limit its losses by avoiding additional commitments and
acquiring existing assets before they are dissipated by the failing firm.


MARAD Could Improve Its Return on Foreclosed Assets Through
Better Tracking of the Vessels and Property Constructed With
Loan Guarantees
MARAD does not closely monitor the physical condition of the assets produced
with the guaranteed loans over the term of its loan guarantees. MARAD relies on
annual Coast Guard inspections to ensure that vessels subject to guarantees are
maintained and operated in a safe manner. Notices from the insurance
underwriters will also advise MARAD of problems or concerns with the vessels
such as accidents. We found that site visits from MARAD’s field offices were
conducted on guaranteed vessels or property only in response to problems or
notices of potential problems from third parties or from borrowers. These
third–party notices do not necessarily ensure that the value of the asset is
maintained at a level commensurate with the remaining loan balance.

MARAD also does not adequately monitor and protect assets after loan defaults
occur. At the time of AMCV’s bankruptcy, MARAD was not aware of the current
condition and status of four of the five vessels whose loans ultimately defaulted
(totaling about $330 million). The Cape May Light had completed its maiden
voyage, but was improperly moored at another location and was grounded during
low tide. MARAD directed AMCV to take action and the vessel was reanchored
                                                                                                              12


in the middle of the river, but only after significant exposure to the elements and
deterioration had occurred.

Furthermore, MARAD does not adequately manage assets acquired from
foreclosure. There are no set timeframes or procedures to maximize recovery of
funds from defaulted loans. Thus, vessels and equipment may deteriorate due to
exposure, vandalism, and neglect, diminishing their value and potential return.
For example, in 1998, MARAD paid out approximately $1.8 million for a default
on a vessel owned by Surf Express. The initial appraisal valued the 3-year-old
vessel at only $793,000, and MARAD advertised it for sale several times, but
rejected the bids in an attempt to recover more money. Meanwhile, MARAD
stored the vessel in a wet-berth where it was exposed to the elements, including
Hurricane Georges. When MARAD finally found a prospective buyer, the bidder
rejected the vessel because of seized up engines and general deterioration due to
exposure to tropical weather and the hurricane. As a result, MARAD recovered
only $100,000 from the sale.

In another example, MARAD gained custody of the nearly completed SEAREX
vessel Trident Crusader in March 2001 and clear title to the vessel in
November 2001 without having a disposal plan for the vessel. The default of
SEAREX, Inc., resulted in a liability of approximately $62 million to the
Government covering four vessels in various stages of completion.10 MARAD has
only recently recovered $8.7 million for the Trident Crusader. The other
three hulls and materials were sold for scrap in an auction held on July 11, 2002,
which brought in approximately $1 million, resulting in a net loss of about
$52 million to the Government on this loan.

To better protect the Government’s interest in the assets that are collateral for its
loan guarantees, MARAD needs to periodically inspect such assets, particularly
those operated by firms that MARAD’s financial monitoring identifies as
experiencing financial difficulties. Likewise, when MARAD forecloses on assets
after loan default, it could increase the return to the Government on them by better
managing these assets to ensure they are maintained in good condition.


AMCV’s Bankruptcy Significantly Affected the Title XI Program,
but Does Not Threaten Its Solvency
AMCV’s bankruptcy affected over one quarter of the value of MARAD’s Title XI
portfolio ($1.3 billion out of $4.9 billion at the time of default). This $1.3 billion
represented commitments covering seven vessels. However, only $391 million in
guarantees had actually been signed when AMCV filed for bankruptcy protection

10
     The original loan amount was for $77.3 million, but $15.7 million was being held in escrow at the time of the
     default, resulting in a liability of $61.6 million.
                                                                                                                                         13


          and ceased operations on October 19, 2001. To pay almost $330 million in
          guarantees (the loan on one vessel did not default), MARAD had to borrow
          $136 million from the Treasury. To date, MARAD has repaid $124 million to the
          Treasury. The balance of $12 million is due by FY 2005. See Table 3 for a
          description of the AMCV loan guarantees.


                            Table 3 – MARAD’s Liability for AMCV Vessels
                                        as of December 2002

    Date of       Date                            Parent           Project or         Cost of Vessel   Guaranteed      Paid-Out         Disposition/
    Origin     of Default       Applicant        Company*         Vessel Name           to Owner        Amount         Amount           Recovery**
                             Great Pacific      Delta Queen
May            January       NW Cruise          Steamboat        Columbia                                                             Maintained by
2001           2002          Line, L.L.C.       Co.              Queen                 $42,140,568      $35,471,000    $37,007,570    MARAD
                                                Delta Queen
                                                Coastal
March          December      Coastal Queen      Voyages,                                                                              Maintained by
2000           2001          West, L.L.C.       L.L.C.           Cape May Light         44,950,728       37,900,000     39,769,997    MARAD
                                                Delta Queen
                                                Coastal
March          December      Coastal Queen      Voyages,                                                                              Maintained by
2000           2001          East, L.L.C.       L.L.C.           Cape Cod Light         44,582,720       38,500,000     40,376,340    MARAD
                             Project            Project          Project
April          December      America            America,         America                                                              Sold for
1999           2001          Ship I, Inc.       Inc.             Vessel I              610,797,578      185,000,000    187,317,445    $2 million
                             Project            Project          Project                                                              Part of the
April                        America            America,         America                                                              above settlement
1999           n/a           Ship II, Inc.      Inc.             Vessel II             622,946,837               0                0   for $2 million
                                                Great
                             Great              Hawaiian
November January             Independence       Cruise           S.S.                                                                 Maintained by
1995     2002                Ship Co.           Lines, Inc.      Independence           44,774,271       33,334,000     25,185,531    MARAD
                             Great
                             American
                             Queen              Delta Queen                                                                           Full Recovery-
July                         Steamboat          Steamboat        American                                                             Refinanced to
1995           n/a           L.L.C.             Co.              Queen                  69,424,647       60,746,000               0   new owner
Source: MARAD
                                                                                            Totals:    $390,951,000   $329,656,883

*       AMCV is the parent company to Delta Queen Steamboat Co. and AMCV
        Holdings, Inc. Delta Queen Steamboat Co., in turn, is the parent company of
        Delta Queen Coastal Voyages, L.L.C. AMCV Holdings, Inc., is the parent
        company of Project America, Inc., and Great Hawaiian Cruise Lines, Inc.
        Applicants are subsidiaries of Delta Queen Steamboat Co.; Delta Queen
        Coastal Voyages, L.L.C.; Project America, Inc.; and Great Hawaiian Cruise
        Lines, Inc.

**     These amounts do not include recoveries from escrowed funds.




          The circumstances surrounding AMCV’s loan approvals and defaults illustrate the
          problems identified above. Specifically, modifications to loan approval criteria
          were made without compensating collateral, and parent company guarantees were
          accepted without liens on specific assets of the parent companies. Close financial
          monitoring of AMCV did not occur over the terms of the loans before default, and
                                                                                14


neither did close monitoring of the foreclosed assets. Had our recommended
program revisions and protections been in place at the time of AMCV’s loan
application, the losses to the Government would likely have been much less.

The AMCV defaults serve as a good example of how modifying the financial
requirements without obtaining compensating collateral creates a liability for the
U.S. Government. On their own, only one of the AMCV subsidiaries would have
met all of the qualification requirements for a loan guarantee. By modifying the
financial requirements for each of AMCV’s consecutive loans, MARAD approved
guarantees beyond AMCV’s ability to service the debts, thereby creating a
potential default situation.

With MARAD’s approval of the last guarantee application in May 2001, for the
vessel Columbia Queen, AMCV had received loan commitments of approximately
$1.3 billion—the largest amount of loan guarantees issued to an affiliated group of
entities in the history of the Program. Of the 10 vessels owned and operated by, or
under construction by, the AMCV group, 7 vessels (in 6 loan approvals) were
supported by Title XI loan guarantees. The other three vessels were encumbered
with debt from commercial banking facilities. MARAD failed to secure collateral
in the form of tangible assets other than the first mortgages from AMCV’s
subsidiaries on the vessels being constructed, and thus, AMCV was insulated from
financial responsibility for the loans.

For each of the six loan approvals, MARAD cited the Secretary of
Transportation’s authority to waive or modify the financial terms or requirements
otherwise applicable, upon determining that there was adequate security for the
Title XI guarantees.11 However, prudent financial analysis of AMCV as a whole
would have highlighted the great risk of default and should have prompted
MARAD, in turn, to require more collateral or stricter covenants to protect the
Government’s interest.

One of the practices that MARAD employed to limit losses was the use of
incremental payments to control the disbursement of loan proceeds. This practice
allowed MARAD to release funds to the borrower incrementally as construction
on the project progressed, rather than releasing the entire loan proceeds up front.

Better monitoring of the shipbuilding and financial operations of the AMCV
subsidiaries would likely have alerted MARAD to AMCV’s growing financial
problems, allowing it to take action prior to the defaults. With the guarantee
approval for the Columbia Queen, MARAD allowed AMCV’s annual debt service
to increase by $3 million even though the company’s financial statements
indicated a net loss for the previous year of over $10 million. AMCV’s

11
     46 CFR 298.13 (i)
                                                                             15


cumulative debt service was estimated to be $12 million every 6 months, yet no
part of the approval package indicates MARAD reviewed the impact of this
growing debt service on AMCV’s ability to guarantee or pay its subsidiaries’
debts.

MARAD’s loan guarantees with the AMCV subsidiaries had no established
agreements, protocols, or requirements on how to secure and maintain the vessels
after default. The loan guarantees did not specify which party in the guarantee
security agreement was responsible for specific actions and the timeframes in
which protective actions needed to be taken. Security of the onboard inventory
from theft and pilferage was minimal for all the vessels MARAD acquired through
the AMCV default. It was only after our audit documented the initial signs of
mildew, the lack of security, and the manner of laying-up the vessels, that
MARAD took action to secure them.


CONCLUSIONS
To improve MARAD’s administration and oversight of the Program, MARAD
needs to limit losses to the Federal Government through:

• More effective oversight of the Program’s loan application review and
  approval process, including compensating provisions and collateral;

• More rigorous financial oversight of borrowers during the term of the loan
  guarantee;

• Better monitoring and protection of vessels and shipyards while under a loan
  guarantee; and

• More effective stewardship of foreclosed assets.
                                                                               16




RECOMMENDATIONS
We recommend that the Maritime Administrator:

1. Require a rigorous analysis of the risks from modifying any loan approval
   criteria and impose compensating provisions on the loan guarantee to mitigate
   those risks;

2. Formally establish an external review process as a check on MARAD’s
   internal loan application review and as assistance in crafting loan conditions
   and covenants;

3. Establish a formal process for continuously monitoring the financial condition
   of borrowers, including requirements for financial reporting over the term of
   the guarantee as a condition of loan approval;

4. Establish a formal process for continuously monitoring the physical condition
   of guaranteed assets over the term of the loan guarantee; and

5. Develop an improved process for monitoring the physical condition of
   foreclosed assets and for recovering the maximum amount of funds from their
   disposal.



AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
On February 25, 2003, MARAD provided comments (see Appendix) on our
February 5, 2003 draft report. Those comments were incorporated into our final
report, where appropriate. The Maritime Administrator stated MARAD was in
agreement with our overall recommendations, which reflect sound business
practices.

MARAD’s proposed actions address the intent of our recommendations. MARAD
agreed that a rigorous analysis of the risks from modifying loan approval criteria
and use of compensating provisions are necessary and it will continue to include
these in its assessment of loan guarantee applications. MARAD will immediately
undertake efforts to see if additional collateral or other measures can or must be
provided for future loan guarantees, if necessary to mitigate the risk of default.
We note that MARAD has stated, in the past, it has been subjected to political
pressure to approve loan guarantees its internal analyses indicated were not
financially sound.
                                                                                  17


MARAD also agreed that an external review is desirable. MARAD has already
had several meetings with an outside financial advisor who has performed
analyses for the Export-Import Bank. MARAD is currently seeking the legislative
authority to implement the use of such financial advisors, to be funded by the
prospective borrower. MARAD expects to develop requirements for an external
review process appropriate for its Title XI projects within 3 months.

In addition, within the same time period, MARAD will implement a formal
process for review of semi-annual and annual Title XI financial statements.
MARAD also plans to develop a “credit watch” report for the use of senior agency
management to regularly track the financial status of Title XI borrowers and
thereby determine at an early stage which companies may be experiencing
financial difficulties.

Furthermore, MARAD will develop a reporting system to obtain relevant
information from the class society (an entity designated by governments to
oversee construction of vessels) during the vessel construction period and from the
Coast Guard, the class society, and insurance companies over the term of the loan
guarantee after the assets are completed and put into service.

Within 3 months, MARAD also intends to complete a review of its procedures for
maintaining defaulted assets to see where improvements can be made. As part of
this process, we would encourage MARAD to develop procedures that will not
only be effective in maintaining such assets, but will take into account the relative
costs involved. For example, in regard to the AMCV bankruptcy, we noted
MARAD spent more than $2 million to secure a 50-year-old vessel, the
S.S. Independence, which only had scrap value. MARAD shipped this vessel from
Hawaii back to California and put it in “mothballs.”

MARAD is cognizant of the need for improved oversight of the Title XI Program
and is in agreement with our five recommendations for improving oversight. We
note your commitment to tightening the controls over the approval of loan
guarantees and taking more timely action to recover the maximum amount
possible from foreclosed assets in the event of loan defaults. These actions, when
implemented, will go a long way toward improving the operation and efficiency of
the Title XI Program.
                                                                            18




ACTION REQUIRED
In accordance with Department of Transportation Order 8000.1C, we request that
you provide milestones for implementing intended actions for recommendations 1
and 4 within 30 days.

We appreciate the courtesies and cooperation of MARAD representatives during
this audit. If you have any questions concerning this report, please call me at
(202) 366-1959, or Mark R. Dayton, Assistant Inspector General for Competition
and Economic Analysis, at (202) 366-9970.

                                      #
                                                                                                            19



EXHIBIT A. SCOPE, METHODOLOGY, AND PRIOR
AUDIT COVERAGE
We conducted the audit between November 2001 and January 2003 in accordance
with Government Auditing Standards prescribed by the Comptroller General of
the United States.

To determine the status and historical trends of loan guarantees, as well as policies
and procedures for the Title XI Program, we interviewed personnel from various
MARAD organizations to discuss and obtain copies of the policies, procedures,
regulations, and internal controls for the Title XI Program. We also interviewed
various government and industry specialists.

We determined what loan guarantees had been approved and analyzed information
in the case files in accordance with Code of Federal Regulation (46 CFR 298)
requirements. We determined whether the application packages and their
approvals complied with the CFR. We also determined whether MARAD used
and complied with the requirements and recommendations outlined in the Office
of Management and Budget Circulars A-123 and A-129, for the administration and
management of the Federal guaranteed loan programs. Additionally, we reviewed
what internal controls existed to ensure the policies and procedures prevented
fraud, waste, abuse, mismanagement or misappropriation of Federal funds.
Finally, we analyzed all 9 recently defaulted loans and a stratified random sample
of 33 of the remaining loans in MARAD’s portfolio. Therefore, as of
April 1, 2002, we analyzed 42 loan guarantees valued at about $1.6 billion out of a
universe of 100 loan guarantees, totaling about $5.6 billion.

Our review of AMCV included an in-depth review of the loan applications of its
subsidiaries. Additionally, we reviewed the AMCV Securities and Exchange
Commission filings for the last 5 years. Finally, we visited the foreclosed AMCV
assets in Jacksonville, Florida; Pascagoula, Mississippi; and New Orleans,
Louisiana.

Prior Audit Coverage

The OIG issued three reports concerning MARAD’s Title XI loan guarantee to
Massachusetts Heavy Industries prior to its default in February 2000.12 In these
reports, we identified management weaknesses and made recommendations to
MARAD to strengthen its loan guarantee program.

12
     Report MA-1998-048, “Management Advisory on Massachusetts Heavy Industries, Inc., Title XI Loan Guarantee,”
     December 17, 1997; Report MA-1999-115, “Massachusetts Heavy Industries, Inc., Title XI Loan Guarantee,”
     July 20, 1999; and Report MA-1999-127, “Status Update Massachusetts Heavy Industries, Inc. Title XI Loan
     Guarantee,” September 15, 1999.

Exhibit A. Scope, Methodology, and Prior Audit Coverage
                                                                20
EXHIBIT B. ACTIVITIES VISITED OR CONTACTED

MARITIME ADMINISTRATION
Office of the Maritime Administrator
Office of Chief Counsel
Office of Accounting
Office of Statistical and Economic Analysis
Office of Financial and Rate Approvals
Associate Administrator for Shipbuilding
      Office of Shipbuilding and Marine Technology
             Division of Ship Design and Engineering Services
             Division of Advanced Technology
             Division of Support Activities
      Office of Ship Financing
      Office of Insurance and Shipping Analysis
             Division of Shipping Analysis
             Division of Marine Insurance

OTHER ACTIVITIES
U.S. Department of Justice
U.S. Department of the Treasury
Atlantic Marine Shipyard, Jacksonville, FL
Northrop Grumman, Ingalls Shipyard, Pascagoula, MS
Delta Steamship Lines, New Orleans, LA
Export-Import Bank of the United States
U.S. Bankruptcy Court, Wilmington, DE
J.P. Morgan Chase Bank of Manhattan
General Accounting Office
Citibank
Deutsche Bank Securities Inc.




Exhibit B. Activities Visited or Contacted
                                                                             21




EXHIBIT C. MAJOR CONTRIBUTORS TO THIS
REPORT
  THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



     Name                      Title

     Mark R. Dayton            Assistant Inspector General for Competition
                               and Economic Analysis
     Michael E. Goldstein      Program Director
     Pamela J. Steele-Nelson   Project Manager
     Joseph F. Lenart, Jr.     Analyst
     David S. Engelen          Analyst
     Christopher T. Brothers   Analyst
     Wayne L. White            Auditor
     Bernard Fishman           Auditor
     Shirley Murphy            Editor
     Petra Swartzlander        Statistician




Exhibit C. Major Contributors to This Report
                                22



APPENDIX. MANAGEMENT COMMENTS




APPENDIX. MANAGEMENT COMMENTS
                                23




Appendix. Management Comments
                                24




Appendix. Management Comments
                                25




Appendix. Management Comments
                                26




Appendix. Management Comments
